          Office of Inspector General




December 22, 2006

TERRY J. WILSON
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Air Networks – Airport Mail Center Operations - Atlanta
         (Report Number NL-AR-07-001)

The U.S. Postal Service air transportation network includes 59 airport mail centers
(AMCs). The principal mission of AMCs is to receive mail from the Postal Service
ground transportation network, distribute it to commercial air carriers for airport-to-
airport transportation, and recover it from air carriers for further transportation and
delivery. This report is one in a series of reports that presents results from our
nationwide air network audit (Project Number 04YG023NL004). Our objectives were to
evaluate the effectiveness of the air transportation network and identify opportunities to
save money. This report focuses on the Atlanta AMC.

The effectiveness of Atlanta AMC operations could be improved, and the Postal Service
could save at least $107 million over a 10-year period, if Postal Service officials
increased Atlanta AMC productivity and reduced Atlanta AMC workhours to levels
commensurate with current operational requirements. Specifically, the Postal Service
could achieve these results by using equipment efficiently in accordance with
productivity standards, eliminating overstaffing on some operations, eliminating
operations that are not necessary, and reducing workhours, including unsupported
overtime, accordingly.

The Postal Service transportation network is dynamic, and requirements change
constantly. Therefore, throughout our audit, we continually coordinated with local, area,
and headquarters officials; discussed our observations, analysis, and preliminary
recommendations; and solicited their feedback. We appreciated these officials’
cooperation and rapid reaction to our preliminary recommendations and the changing
operational environment, as well as their willingness to make immediate modifications to
save the Postal Service money. In this regard, Atlanta AMC management has already
initiated action to emphasize supervision and accountability, increase productivity,
eliminate overstaffing, eliminate unnecessary functions, and reduce workhours.
However, they acknowledged that their initiatives are not yet complete, that the task of
improving the Atlanta AMC’s productivity is challenging, and that despite their initiatives,
staffing levels have not changed appreciably. They also explained that staffing issues
remain uncertain because the Postal Service’s air network strategy and plans for future
network optimization could significantly affect long-term requirements.
We recommended that management reinforce the supervisory practices Atlanta AMC
managers have initiated and analyze Atlanta AMC operational requirements in relation
to the Postal Service’s air network strategy and plans for future network optimization.
Management explained the Atlanta AMC had undergone significant operational changes
within the last year due to the loss of commercial airlines and the intra-facility movement
of processing facilities in Atlanta. They stated they implemented a variety of
supervisory management tools to allow supervisors to monitor data, share information,
improve efficiencies, and match operational targets with workload projections.
Management also stated they had already reduced some staffing, would continue to
reduce staffing as more air volume moved to surface transportation, and had already
shifted certain operations from the Atlanta AMC to other Atlanta facilities.
Management’s comments and our evaluation of these comments are included in the
report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Donald M. Spatola
    William J. Mitchell
    Steven R. Phelps
Air Networks - AMC Operations - Atlanta                                                  NL-AR-07-001



                                          INTRODUCTION
 Background                     The U.S. Postal Service air transportation network includes
                                59 airport mail centers (AMCs). The principal or “core”
                                mission of AMCs is to:

                                    •     Receive mail from the Postal Service ground
                                          transportation network.

                                    •     Distribute or “tender” that mail to commercial air
                                          carriers for airport-to-airport transportation.

                                    •     Monitor mail in air carriers’ possession.

                                    •     Supervise air carriers’ mail handling operations
                                          during aircraft loading and unloading.

                                    •     Recover mail from air carriers.

                                    •     Redistribute mail for further transportation and
                                          delivery.

                                In addition to the above “core AMC operations,” some
                                AMCs perform collateral operations that are usually
                                performed at mail processing facilities. These additional




     The Postal Service air
    transportation network
       includes 59 AMCs.



                                                                    59 AMC Locations Nationwide


                                                                                                  Puerto
                                                                                                   Rico


                                operations include some mail sorting, repairing damaged
                                mail, and applying mail dispatch and routing (D&R) tags.
                                The Postal Service spends more than $500 million every
                                year to operate AMCs.


                                                      1
                                           Restricted Information
Air Networks - AMC Operations - Atlanta                                                 NL-AR-07-001




 The Postal Service Air         The air transportation network is dynamic and AMC
 Network in Transition          operational requirements change continually. Recent
                                events have reduced operational requirements for AMCs.

                                AMC Standardization Initiative – In fiscal year (FY) 2005,
                                the Postal Service began standardizing AMCs. This effort
                                included:

                                    •     Redesignating most AMCs as air transport offices
                                          (ATOs), also called airport transfer centers (ATCs).

                                    •     Eliminating the collateral functions normally
                                          performed by mail processing facilities.

                                    •     Restricting the ATO mission to the core functions of
                                          distributing mail to air carriers, monitoring mail in air
                                          carriers’ possession, and recovering mail from air
                                          carriers for further transportation.

                                Initial standardization plans anticipated that 52 of the Postal
                                Service’s 59 AMCs would be converted into ATOs over an
                                18-month period. Postal Service officials hoped that
                                standardization would reduce inefficiency, improve
                                productivity, and save money.

   This picture shows D&R
    tags being applied to
   mail trays at the Atlanta
    AMC in August 2004.
    D&R tags are normally
      placed on mail at
     processing facilities
   such as processing and
     distribution centers.
      The Postal Service’s
    FY 2005 standardization
   initiative was intended to
        eliminate noncore
        functions such as
     placement of D&R tags
         and return those
    functions to processing
              plants.


                                The Integrated Air Strategy – In January 2006, Postal
                                Service management formalized an integrated air strategy
                                and briefed the Board of Governors (BOG) on the strategy.
                                Management explained that passenger airlines were not as


                                                      2
                                           Restricted Information
Air Networks - AMC Operations - Atlanta                                             NL-AR-07-001



                                reliable as the Postal Service needed them to be. Under
                                the new strategy, the Postal Service would:

                                    •     Reduce reliance on passenger airlines.

                                    •     Expand existing air transportation with United Parcel
                                          Service (UPS).

                                    •     Renegotiate and renew the existing air transportation
                                          contract with Federal Express (FedEx).

                                    •     Where possible, shift mail moved by air to less costly
                                          ground transportation.

                                Officials emphasized that the integrated air strategy would
                                increase air carriers’ on-time performance, reduce costs,
                                create air network redundancy, improve flexibility, enhance
                                security, and make contracting more competitive.

                                Officials also said the integrated air strategy would affect the
                                mission of AMCs because in the future, contractors would
                                perform AMC core operations, thereby reducing or
                                eliminating the need for AMCs. In July 2006, the Postal
                                Service formally announced that it was considering
                                outsourcing the principal AMC core functions—the tender
                                and receipt of mail.



   On June 28, 2006, under
      the integrated air
     strategy, the Postal
      Service signed an
   expanded contract with
   UPS for airport-to-airport
     mail transportation.

        UPS planes at
      Hartsfield-Jackson
     Atlanta International
     Airport, October 10,
             2006.




                                The UPS Contract – On June 28, 2006, the Postal Service
                                announced a new 3-year contract with UPS. The contract
                                provided expanded airport-to-airport mail transportation to



                                                      3
                                           Restricted Information
Air Networks - AMC Operations - Atlanta                                            NL-AR-07-001



                                potentially 98 cities. Officials explained that mail flown on
                                UPS planes would:

                                    •     Eventually reach about 1.4 million pounds per day.

                                    •     Come from mail previously flown on passenger
                                          airlines or FedEx.

                                    •     Bypass AMCs.

                                    •     Be transported by the Postal Service to and from
                                          UPS air shipment facilities.

                                    •     Significantly reduce the amount of mail passing
                                          through AMCs.

                                The FedEx Contract – On August 2, 2006, the Postal
                                Service announced that it had cut short its original 2001
                                contract with FedEx and signed a new 7-year agreement.
                                The new agreement specified an immediate price reduction
                                in all contract categories and stipulated that the Postal
                                Service would continue to outsource terminal handling
                                services, including some of the services otherwise
                                performed by AMCs.


    On June 30, 2006, the
   Postal Service signed a
    new 7-year agreement
        with FedEx.

      The air container
        pictured in the
   foreground is designed
      to be loaded onto
           aircraft.

       FedEx planes at
      Hartsfield-Jackson
     Atlanta International
           Airport,
      October 10, 2006.



                                The Commercial Air Contract – On June 30, 2006, when the
                                Postal Service mail transportation contract with 40 air
                                carriers expired without renewal, the Postal Service
                                evaluated the performance of the 40 carriers and asked only



                                                      4
                                           Restricted Information
Air Networks - AMC Operations - Atlanta                                            NL-AR-07-001



                                selected airlines to continue. On September 29, 2006, the
                                Postal Service announced new air transportation contracts
                                with seven airlines—American, American Trans Air,
                                Continental, JetBlue, Midwest, Sun Country, and U.S.
                                Airways. The Vice President, Network Operations,
                                explained that by relying on passenger airlines with


   Postmaster General Jack
    Potter (center) shakes
     hands with American
    Airlines Chairman and
     CEO Gerard Arpey as
         USPS Network
        Operations Vice
   President, Tony Pajunas,
      looks on. American
    Airlines is one of seven
    passenger airlines that
   signed air transportation
   contracts with the Postal
            Service.

  Postal Service photograph,
     September 29, 2006.



                                established records of performance, the new contracts
                                would help achieve on-time delivery and provide the highest
                                levels of service.

 The Atlanta AMC                The Atlanta AMC is located at the Hartsfield-Jackson
                                Atlanta International Airport. In September 1997, the BOG
                                approved a Decision Analysis Report (DAR) to establish the
                                center, and the 325,000 square foot facility was completed
                                in 1999. The DAR identified Delta Airlines as the major
                                Atlanta air carrier and cited mail flown on Delta as a
                                significant justification for establishing the Atlanta AMC.
                                Delta Airlines was not one of the passenger airlines the
                                Postal Service asked to continue transporting mail after the
                                commercial air contract expired on June 30, 2006, and
                                Delta is no longer a Postal Service domestic mail
                                transportation contractor. Terminating Delta as a domestic
                                air transportation contractor significantly affected the Atlanta
                                AMC’s mission.

                                The DAR stated that the Atlanta AMC would be a Postal
                                Service-owned facility located on a 21-acre site, leased for
                                30 years, at the Hartsfield-Jackson Atlanta International



                                                     5
                                          Restricted Information
Air Networks - AMC Operations - Atlanta                                             NL-AR-07-001



                                  Airport. The DAR also stated that because of space
                                  constraints at Atlanta mail processing facilities, the Atlanta
                                  AMC would perform some collateral mail processing
                                  operations in addition to core operations. The Postal
                                  Service spends about $45 million annually to operate the
                                  Atlanta AMC. That total is the second highest in the
                                  59-facility air transportation network and accounts for about
                                  9 percent of all funds the Postal Service spends to operate
                                  AMCs. About 700 Postal Service employees work at the
                                  Atlanta AMC, and personnel costs for Atlanta AMC
                                  employees exceed $35 million annually. Leasing costs for
                                  the land are about $350,000 annually.




      U.S. Postal Service
        Atlanta AMC at
      Hartsfield-Jackson
 Atlanta International Airport.




                                  The Atlanta AMC was not one of the 52 AMCs designated
                                  for conversion to an ATO under the Postal Service’s FY
                                  2005 standardization initiative. Local officials were
                                  uncertain why the facility was not designated, but suggested
                                  the reasons might be the long-term lease and the potential
                                  for using the facility as a consolidated Area Mail Processing
                                  (AMP) center under the Postal Service’s strategy for
                                  optimizing the future network. However, the local officials
                                  could not cite any specific consolidation plans; rather, they
                                  explained that the Postal Service was considering a plan to
                                  expand the region’s mail processing capacity by adding a
                                  new mail processing center in northwest Atlanta. If the new
                                  Northwest Processing Center was established, the AMC
                                  might be converted to an ATO with a greatly reduced
                                  mission.




                                                     6
                                          Restricted Information
Air Networks - AMC Operations - Atlanta                                            NL-AR-07-001



                                Local officials further explained that the Atlanta AMC’s core
                                operational requirements were significantly reduced by the
                                integrated air strategy, the UPS contract, the renegotiated
                                FedEx contract, and the generally reduced reliance on




      These unused mail
    chutes were once used
      to distribute mail to
         Delta Airlines.
      Delta Airlines is no
     longer a domestic air
         transportation
   contractor for the Postal
   Service. An Atlanta AMC
   manager said that in the
    past, Delta Airlines had
      been the “heart and
      soul” of the Atlanta
              AMC.

        Atlanta AMC,
       October 6, 2006.




                                passenger airlines. Officials also cited the specific
                                elimination of Delta Airlines as a Postal Service domestic air
                                transportation contractor as greatly impacting operational
                                requirements for the Atlanta AMC.

 Objectives, Scope,             This report is one in a series of reports on Postal Service air
 and Methodology                network operations. Our objectives were to evaluate
                                whether operations were effective and to identify
                                opportunities to save money. This report focuses on the
                                Atlanta AMC.

                                We interviewed officials from Postal Service Headquarters
                                Network Operations, the Southeast Area and the Atlanta
                                District. We visited the Hartsfield-Jackson Atlanta
                                International Airport, the Atlanta AMC, and other network
                                AMCs. We interviewed supervisors, employees, and airline
                                personnel, and we observed and photographed operations.




                                                     7
                                          Restricted Information
Air Networks - AMC Operations - Atlanta                                            NL-AR-07-001




                                We examined relevant Postal Service policies and
                                procedures and other related documents, including:

                                    •     The Postal Service’s commercial air contract with
                                          passenger airlines, dated June 28, 2003.

                                    •     The Postal Service’s Integrated Air Strategy, dated
                                          January 9, 2006.

                                    •     The original FedEx contract, dated January 10, 2001,
                                          and the renegotiated FedEx contract, dated July 31,
                                          2006.

                                    •     The UPS contract dated June 26, 2006.

                                    •     The Atlanta AMC DAR, dated June 6, 1996, and the
                                          DAR modification, dated April 16, 1997.

                                    •     The Northwest Atlanta Processing Center Facility
                                          Planning Concept, dated February 17, 2006.

                                Using computer-assisted analysis techniques, we examined
                                computer-generated data from the Postal Service, and we
                                used the data to analyze mail volume, expenditures, and
                                productivity. We did not audit or comprehensively validate
                                the data; however, we noted several weaknesses that
                                constrained our work. For example, the Atlanta AMC did
                                not routinely compile workhour data for its processing
                                operations according to standard procedures for Postal
                                Service mail processing facilities. In addition, Atlanta AMC
                                operations were not held to nationally established
                                processing productivity standards. Although data
                                weaknesses and other limitations constrained our work, we
                                supported our audit conclusions by applying alternate audit
                                procedures, including the use of locally established
                                productivity standards where available, examination of
                                source documents, physical inspection, and consultation
                                with subject matter experts such as the Postal Service’s
                                activity-based costing group. We also used observation,
                                reasonable approximation, and discussion with officials. We
                                maintained a dialogue with Postal Service officials, shared
                                observations, and solicited feedback.




                                                      8
                                           Restricted Information
Air Networks - AMC Operations - Atlanta                                               NL-AR-07-001




                                   We conducted work associated with this report from March
                                   2005 through November 2006, in accordance with generally
                                   accepted government auditing standards, and included such
                                   tests of internal controls as we considered necessary under
                                   the circumstances. We discussed our observations and
                                   conclusions with management officials and included their
                                   comments where appropriate.

 Prior Audit Coverage              Our audit, Mail Backlogs at the Hartsfield-Jackson Atlanta
                                   International Airport (Report Number NL-AR-05-002, dated
                                   March 8, 2005), responded to a December 27, 2004,
                                   complaint from a Postal Service employee who reported
                                   significant mail backlogs at the Hartsfield-Jackson Atlanta
                                   International Airport. During our on-site visits, we observed
                                   backlogged mail the Atlanta AMC had tendered to Delta
                                   Airlines. We concluded that as a result of Delta’s inability to


      Hartsfield-Jackson
     Atlanta International
   Airport, December 2004.

      Backlogged mail
   exposed to the weather,
    staged on the airport
       tarmac awaiting
   transportation by Delta
           Airlines.

        In a prior audit, we
      concluded that Delta’s
 inability to transport the mail
     cost the Postal Service
    money it should not have
  been required to spend, and
   that passenger airlines did
      not always meet their
     contractual obligations.



                                   transport mail, the Postal Service incurred unanticipated
                                   costs to repossess and reroute mail, including
                                   higher-than-normal contract expenditures for emergency
                                   surface transportation. Management agreed with all of our
                                   recommendations. In their response, management stated
                                   that during the holiday period, December 21 through 31,
                                   2004, they repossessed 153,340 pounds of mail distributed
                                   to Delta. Management also stated that on February 2,
                                   2005, Delta notified the Postal Service that it would no



                                                      9
                                           Restricted Information
Air Networks - AMC Operations - Atlanta                                            NL-AR-07-001



                                longer use its Atlanta hub to transfer mail to connecting
                                flights. Instead, Delta stated it would use the Atlanta hub
                                only to transport mail originating or terminating in Atlanta.

                                Our audit, Commercial Air Network Operations (Report
                                Number NL-AR-05-015, dated September 28, 2005), stated
                                that passenger airlines did not always meet their contractual
                                obligations and did not meet the 92 percent on-time
                                performance anticipated for First-Class Mail® air
                                transportation. The report cited airline data indicating that
                                from October 2003 through May 2005, passenger airlines’
                                on-time performance for First-Class Mail averaged between
                                39 and 67 percent. The report also concluded that AMC
                                personnel were not properly using electronic scanning
                                equipment, were not recording airline contract violations,
                                and were not properly executing mail repossession. As a
                                result, the Postal Service could not pursue the monetary
                                recoveries and penalties to which it was entitled. The report
                                recommended that the Postal Service strengthen the control
                                environment, ensure that systems for recovering damage
                                penalties were functioning, and aggressively pursue
                                damage penalties where possible. Management agreed
                                with all of our recommendations.

                                Our audit report, Efficiency Review of the Los Angeles,
                                California, Worldway Airport Mail Center (Report Number
                                NO-AR-06-006, dated September 12, 2006), stated that in
                                FY 2005, the Postal Service decided to standardize AMCs,
                                eliminate all noncore operations, and restrict the AMC
                                function to transporting mail to and from airlines. The report
                                concluded that the Worldway AMC had not adequately
                                adjusted to the reduced workload resulting from the FY
                                2005 standardization initiative, and that the Postal Service
                                could save more than $192 million over the next 10 years by
                                staffing operations at a level commensurate with the
                                reduced workload. Management agreed with all of our
                                findings and recommendations.




                                                    10
                                          Restricted Information
Air Networks - AMC Operations - Atlanta                                                    NL-AR-07-001



                                          AUDIT RESULTS

 Atlanta AMC                    The effectiveness of Atlanta AMC operations could be
 Operations                     improved, and the Postal Service could save at least
                                $107 million over a 10-year period, if Postal Service
                                officials:

                                    •     Use equipment efficiently and according to
                                          productivity standards.

                                    •     Increase the Atlanta AMC’s productivity.

                                    •     Reduce the Atlanta AMC’s workhours to levels
                                          commensurate with current operational requirements.

                                Our analysis of FY 2004 and 2005 Atlanta AMC data
                                concluded that the Postal Service incurred costs for about
                                653,000 unnecessary workhours. We estimated that the
                                Postal Service could phase out 409,957 workhours over the
                                next 5 years and save more than $107 million over the next
                                10 years. (See the chart below.)

                                        Potential Future Workhour Reductions and Associated Savings
                                                    (See Appendix A for more information)

                                                                                  Hours      Savings

                                 Productivity increases and workhour
                                 reductions (including overtime)                 227,219    $57,732,000

                                 Overstaffing                                     85,622     23,311,000

                                 Unnecessary operations                          _97,116    _26,830,000

                                 Total                                           409,957   $107,873,000


 Productivity and               Our analysis of FY 2004 and 2005 data identified about
 Excess Overtime                398,500 excess workhours that the Atlanta AMC should not
                                have needed to process mail. As a result, the Atlanta AMC
                                incurred more than $10.1 million in unnecessary costs. The
                                Atlanta AMC also incurred $2.5 million in overtime costs that
                                were either unnecessary or unsupported. The Atlanta AMC
                                incurred excess or unsupported costs because of inefficient
                                operations. Productivity data either did not exist or officials
                                did not analyze it, and consequently, managers did not
                                enforce standards.




                                                      11
                                            Restricted Information
Air Networks - AMC Operations - Atlanta                                            NL-AR-07-001




                                 Postal Service officials measure mail processing efficiency
                                 or productivity based on national standards for pieces of
                                 mail processed per workhour for each type of equipment.
                                 However, they stated that instead of measuring the mail
                                 processing productivity of AMCs, they evaluate performance
                                 based on adherence to budget. According to the Postal
                                 Service’s FY 2006 records, the Atlanta AMC was $6 million
                                 over budget as of July 31, 2006.

     UPS moving an air
   container filled with mail
      in preparation for
        loading onto a
         UPS aircraft.

   The contract between the
    Postal Service and UPS
  requires the Postal Service
    to move mail directly to
  UPS air shipment facilities.
       The contract also
   significantly reduces the
    amount of mail passing
        through AMCs.

    Photograph taken on the
   Hartsfield-Jackson Atlanta
   International Airport ramp,
        October 10, 2006.


                                 As stated in the Objectives, Scope, and Methodology, we
                                 conducted a productivity analysis using locally established
                                 standards when such standards existed. We also used
                                 extensive observation.

                                    Analysis – The records we examined for FY 2004 and
                                    2005 showed that productivity standards were rarely
                                    met, and that productivity did not improve during the
                                    2-year period.

                                    Observation – During our site visits, we noted
                                    employees who were idle or not fully engaged,
                                    inadequate supervision, supervisors who could not
                                    locate staff, limited accountability for work performed,
                                    employees who were on extended breaks, and
                                    employees who worked overtime when no apparent
                                    need for overtime existed.




                                                    12
                                          Restricted Information
Air Networks - AMC Operations - Atlanta                                          NL-AR-07-001




                                If Atlanta AMC officials improve staff supervision, meet the
                                Postal Service’s national productivity standards, and
                                eliminate unnecessary workhours, including overtime, the
                                Atlanta AMC can phase out 227,219 workhours over the
                                next 5 years and save $57.7 million over the next 10 years.

 Overstaffed Operations         Our analysis of data for FY 2004 and 2005 identified about
                                68,000 excess workhours for operations that were
                                overstaffed. As a result, the Atlanta AMC incurred more
                                than $2.6 million in unnecessary costs.

                                The costs were unnecessary because mail volume flowing
                                through the Atlanta AMC during FYs 2004 and 2005
                                declined significantly, but workhours had not been reduced
                                commensurate with the workload. For example:

                                Ramp Clerk Staffing – Our Report Number NL-AR-05-002,
                                Mail Backlogs at the Hartsfield-Jackson Atlanta
                                International Airport (see Prior Audit Coverage), stated that
                                Delta stopped using its Atlanta hub to transfer mail to
                                connecting flights, and limited its Atlanta mail operation to




      Postal Service ramp
   clerks perform AMC core
   operations on the airport
        ramp or tarmac.

    The Atlanta AMC ramp
     clerk pictured here is
      working with Delta
    Airline mail containers.

   Photograph taken on the
      Hartsfield-Jackson
     Atlanta International
         Airport ramp,
     December 30, 2004.




                                mail originating or terminating in Atlanta. When we
                                analyzed mail volume at the Atlanta AMC after Delta
                                transfer operations stopped, we identified a 64 percent
                                decrease in volume. However, the staffing level for ramp


                                                    13
                                          Restricted Information
Air Networks - AMC Operations - Atlanta                                            NL-AR-07-001



                                clerks who monitored Delta mail transfers remained the
                                same, and managers had no documentation to support the
                                staffing level.

                                Mail Repair and Rewrap Staffing – Local managers stated
                                that mail repair requirements dropped significantly after
                                Delta transfer operations stopped, and that they needed
                                only one employee to perform the function on each shift.
                                However, they also stated that three employees were




     The Atlanta AMC mail
   repair and rewrap station
      in the foreground.

      After Delta Airline
       stopped transfer
    operations, the staffing
     requirement for mail
      repair and rewrap
     operations dropped
         significantly.

    Beyond the repair and
   rewrap operation is the
  D&R tag operation and the
   Scan Where You Band
     (S.W.Y.B.) operation

 Photograph taken October 6,
           2006.




                                assigned instead of one. Because the Atlanta AMC had no
                                productivity documentation to validate the managers’
                                assessment, we observed the damaged mail repair and
                                rewrap operation during our on-site inspections, and we
                                noted excessive periods of idle staff time.

                                If Atlanta AMC officials align staffing with current operational
                                requirements, they can phase out 85,622 workhours over


                                                    14
                                          Restricted Information
Air Networks - AMC Operations - Atlanta                                              NL-AR-07-001



                                the next 5 years and save $23.3 million over the next
                                10 years.

 Unnecessary                    Our analysis of FY 2004 and 2005 data identified about
 Operations                     186,400 excess workhours the Atlanta AMC used for
                                unneeded operations. As a result, the Atlanta AMC incurred
                                more than $5.8 million in unnecessary costs. The
                                operations were not needed because they were manual
                                functions that duplicated machine functions or should have
                                been performed by Atlanta regional processing facilities
                                before those facilities transported the mail to the Atlanta

      Mail arriving at the
       Atlanta AMC for
       shipment by air,
      October 10, 2006.

     When mail arrives, it
     should already have
      D&R tags affixed.

   When mail arrives late, it
    has to be rerouted and
           retagged.

    Duplicating the D&R
    function requires the
   Postal Service to spend
    money unnecessarily.



                                AMC for assignment to air carriers. For example, during our
                                site visits, we observed Atlanta AMC personnel:

                                    •     Manually sorting mail to verify that it had been
                                          properly sorted by machine. Local managers stated
                                          that this was a data collection effort, but could not
                                          identify any operational purpose or provide any data
                                          to indicate that machine sorting was inaccurate.

                                    •     Placing D&R tags on mail because regional
                                          processing facilities had not affixed the tags as
                                          required or because the facilities transported the mail
                                          late and mail had to be rerouted and retagged.

                                If Postal Service officials eliminate unnecessary operations
                                or functions at the Atlanta AMC, the Postal Service can
                                phase out 97,116 workhours over 5 years and save
                                $26.8 million over the next 10 years.



                                                     15
                                           Restricted Information
Air Networks - AMC Operations - Atlanta                                              NL-AR-07-001




 Communication,                 As stated in the Background, the Postal Service
 Implementation, and            transportation network is dynamic and requirements change
 Subsequent Events              constantly. Therefore, throughout our audit, we continually
                                coordinated with local, area, and Network Operations
                                officials; discussed our observations, analysis, and
                                conclusions; and solicited their feedback.

                                On December 9, 2005, we met with officials to discuss our
                                analysis of FY 2004 and 2005 operations. As a result of the
                                changing operational environment and management’s
                                responsiveness to our observations and conclusions,
                                officials initiated cost-saving modifications consistent with
                                our recommendations.

                                In January 2006, the Postal Service assigned new
                                management to the Atlanta AMC. The new management
                                team took immediate action to:

                                    •     Emphasize supervision and accountability by aligning
                                          supervisory schedules with operational activity.

                                    •     Increase productivity and reduce workhours,
                                          including unsupported overtime, by “right-sizing” all
                                          operations, establishing standard productivity levels,
                                          ensuring data was available for analysis, and
                                          requiring supervisory pre-approval for overtime.

                                    •     Eliminate overstaffing and unnecessary functions by
                                          creating staffing level models, eliminating some
                                          positions, and reassigning some staff to operations
                                          where they were needed.

                                The new Atlanta AMC management team acknowledged
                                that these initiatives were not completed, that the task of
                                improving productivity at the Atlanta AMC was challenging,
                                and that they had only begun to address the issues. They
                                also conceded that while they had been able to reduce
                                some workhours, staffing levels at the facility had not
                                appreciably changed. Finally, they explained that the
                                Atlanta AMC staffing issue remained clouded because
                                future staffing requirements could be significantly impacted
                                by the proposed Northwest Atlanta Processing Center—and
                                that plans for that proposed facility remained uncertain.




                                                     16
                                           Restricted Information
Air Networks - AMC Operations - Atlanta                                            NL-AR-07-001



                                Throughout our audit, we appreciated the cooperation of
                                Postal Service officials and their proactive responses to our
                                observations and the changing operational environment.
                                We also appreciated their willingness to implement
                                modifications immediately to save the Postal Service
                                money.

 Recommendation                 We recommend the Vice President, Southeast Area
                                Operations:

                                    1. Reinforce the supervisory practices initiated by
                                       Atlanta Airport Mail Center managers, including
                                       aligning supervisors’ schedules with operational
                                       needs; establishing appropriate productivity
                                       standards for all operations at the Atlanta Airport Mail
                                       Center; and using productivity data to increase
                                       efficiency, establish accountability, reduce
                                       workhours, and approve overtime.

 Management’s                   Management explained they implemented a variety of
 Comments                       supervisory management tools to allow supervisors to
                                monitor data, share information, improve efficiencies, and
                                match operational targets with workload projections.
                                Management stated they would continue to use those tools
                                to align workhours with workload, measure performance,
                                and improve productivity. Management’s comments, in their
                                entirety, are included in Appendix B.

 Recommendation                     2. Eliminate unnecessary workload and functions by
                                       analyzing the Atlanta Airport Mail Center’s
                                       operational requirements in relation to the Postal
                                       Service’s integrated air strategy, future network
                                       optimization, and the capacity of the Atlanta regional
                                       mail processing network, including the proposed
                                       Northwest Atlanta Processing Center.

 Management’s                   Management explained the Atlanta AMC had undergone
 Comments                       significant operational changes within the last year due to
                                the loss of commercial airlines and the intra-facility
                                movement of processing facilities in Atlanta. They stated
                                they:

                                    •     Already reduced ramp clerks, transfer clerks and
                                          other clerks to match workload projections.



                                                     17
                                           Restricted Information
Air Networks - AMC Operations - Atlanta                                            NL-AR-07-001



                                    •     Would continue to reduce ramp clerks as more air
                                          volume moved to surface transportation.

                                    •     Shifted First Class Mail scanning operations from the
                                          Atlanta AMC to Atlanta plants.

                                    •     Automated the D&R tag placement process at the
                                          North Metro Processing and Distribution Center.

                                    •     Would continue to address operational deficiencies to
                                          align workhours to workload.

                                Management also stated that their goal was to provide
                                customers with the best service by reducing cost and
                                improving efficiency.

 Evaluation of                  Management’s comments are responsive to our findings
 Management’s                   and recommendations. Although management’s comments
 Comments                       did not specifically state agreement with the findings,
                                recommendations, and monetary impact, we consider
                                management’s actions, taken or planned, sufficient to
                                address the recommendations we made in our report.




                                                     18
                                           Restricted Information
          Air Networks - AMC Operations - Atlanta                                                                 NL-AR-07-001



                                                            APPENDIX A

                            ATLANTA AIR MAIL CENTER
               FUTURE WORKHOUR REDUCTIONS AND ASSOCIATED SAVINGS
                                               Productivity and Excess Overtime

                                 Year 1           Year 2          Year 3           Year 4          Year 5                               Total
                   Average        Hour             Hour            Hour             Hour            Hour          Total Hour           Savings
Workhour Type*     Rate/Hr      Reduction        Reduction       Reduction        Reduction       Reduction       Reduction          (10 Years)**

Clerk                $41.72          23,342           23,342          23,342           23,342          23,342          116,710        $32,665843
Casual                13.56          31,704                                                                             31,704          3,682,261
Clerk OT              34.05          42,154                                                                             42,154        12,294,099
Casual OT             16.94           3,515                                                                              3,515            510,011
Mail Handler OT       28.23          29,043                                                                             29,043          7,022,523
Supervisor OT         44.22           4,093                                                                              4,093          1,557,260
 Total                              133,851           23,342          23,342           23,342          23,342          227,219       $57,731,996


                                                               Overstaffing

                                 Year 1           Year 2          Year 3           Year 4          Year 5
                   Average        Hour             Hour            Hour             Hour            Hour          Total Hour         Total Savings
Workhour Type*     Rate/Hr      Reduction        Reduction       Reduction        Reduction       Reduction       Reduction           (10 Years)**

Clerk                $41.72           6,712            6,712           6,712            6,712           6,712           33,560          $ 9,393,074
Mail Handler          39.85          10,412           10,412          10,412           10,412          10,412           52,060          13,917,909
 Total                               17,124           17,124          17,124           17,124          17,124           85,622         $23,310,983


                                                      Unnecessary Operations

                                 Year 1           Year 2          Year 3           Year 4          Year 5
                   Average        Hour             Hour            Hour             Hour            Hour          Total Hour         Total Savings
Workhour Type*     Rate/Hr      Reduction        Reduction       Reduction        Reduction       Reduction       Reduction           (10 Years)**

Clerk                $41.72          12,576           12,576          12,576           12,576          12,576         62,881           $17,599,419
Mail Handler          39.85           5,194            5,194           5,194            5,194           5,194         25,969             6,942,914
Clerk OT              34.05           5,803                                                                            5,803             1,692,429
Mail Handler OT       28.23           2,463                                                                            2,463               595,547
 Total                               26,036           17,770          17,770           17,770          17,770         97,116           $26,830,309


                                 Year 1           Year 2          Year 3           Year 4          Year 5
                                  Hour             Hour            Hour             Hour            Hour          Total Hour         Total Savings
                               Reduction         Reduction       Reduction        Reduction       Reduction       Reduction           (10 Years)**

 Total All Areas                    177,011           58,236          58,236           58,236          58,236          409,955        $107,873,288

           * Regular hours reduced over 5-year period to allow for attrition; overtime/casual hours reduced in first year.
          ** Projected savings represent labor costs avoided over 10 years, discounted to present value using the Postal Service's
          published discount rate of 5.25 percent.




                                                                    19
                                                          Restricted Information
Air Networks - AMC Operations - Atlanta                            NL-AR-07-001



                   APPENDIX B. MANAGEMENT’S COMMENTS




                                                    20
                                          Restricted Information
Air Networks - AMC Operations - Atlanta                            NL-AR-07-001




                                                    21
                                          Restricted Information
Air Networks - AMC Operations - Atlanta                            NL-AR-07-001




                                                    22
                                          Restricted Information
